THE PLANNING AND AWARD OF THE WIDE 

    AREA NETWORK OPTIMIZATION 

CONTRACT USING RECOVERY ACT FUNDS 





          Report Number: ROM 10-17 

          Date Issued: June 29, 2010 

             u.s. Small Business Administration
             Office of Inspector General                       Memorandum
     To: 	   Darryl K. Hairston                                                        Date:    June 29, 2010
             Associate Administrator for Management and
             Administration
             lsi Original Signed
  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   The Planning and Award of the Wide Area Network Optimization Contract Using
             Recovery Act Funds, ROM 10-17

             This report presents the results of our audit of the Small Business Administration's
             (SBA's) planning and award of the Wide Area Network (WAN) Optimization
             contract funded under the American Recovery and Reinvestment Act of 2009
             (Recovery Act). This is the second in a series of audit reports related to our
             ongoing audit of Information Technology (IT) contracts awarded with Recovery
             Act funds. Our first report addressed the planning and award of the Customer
             Relationship Management contracts. 1

             The purpose of the audit was to determine whether in making the contract award,
             SBA: (1) adopted an acquisition plan for the procurement that promoted
             competition and provided for measurable outcomes; (2) ensured contractors were
             qualified and that contracts contained required Recovery Act provisions; and
             (3) properly posted the solicitation and contract award to meet transparency
             requirements of the Recovery Act.

             To accomplish the first objective, we reviewed Office of Management and Budget
             (OMB) guidance on the Recovery Act, pertinent Federal Acquisition Regulations
             (FAR), SBA Standard Operating Procedure (SOP) 00 11 lH, Small Purchases,
             Contract, Grants, & COOP Agreements, and the WAN Optimization contract file.
             We also interviewed personnel from the Office of the Chief Information Officer
             (OCIO) and the Office of Business Operations. To address the second objective,
             we reviewed the WAN Optimization contract file to determine whether
             contracting personnel determined the contractors were qualified. We also
             reviewed the contract to determine whether all contract-related Recovery Act
             requirements were included. To address the third objective, we reviewed the

             1
             OIG ROM 10-16, SBA 's Planning and Award o/the Customer Relationship Management Contracts, JlUle 29, 2010.
                                                                                                           2


WAN Optimization contract file and information from the Federal Business
Opportunities (FedBizOpps) website, the Federal website for contract solicitation
and award postings, to determine whether the award was properly publicized. We
conducted our audit between October 2009 and April 20 10, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND
SBA received $20 million in Recovery Act funds for improving, streamlining, and
automating information technology systems related to lender processes and lender
oversight. SBA used about $843,000 of the $20 million to procure WAN
optimization or acceleration technology solutions. The WAN Optimization
project was implemented to automate and streamline lender processes through the
expansion of SBA's IT telecommunications infrastructure through improved
network bandwidth.

SBA's OCIO, which is the sponsoring program office, planned to implement the
WAN Optimization project in two phases: (1) a pilot phase limited to the
installation of the WAN expansion technology at two sites; and (2) a full
deployment phase if the desired results were realized during the pilot phase. SBA
officials also planned to award the contract as a sole-source set-aside under the
8(a) Business Development Program. 2 On August 26,2009, SBA awarded a firm­
fixed price/time and materials contract on a sole-source basis to Acuity, Inc., an
8(a) firm, for approximately $843,000 to provide support services and equipment
needed for WAN optimization. The contract was classified, using the North
American Industry Classification System, as Computer Systems Design Services.

In February and April 2009, OMB issued guidance 3 for carrying out activities
funded by the Recovery Act. The guidance emphasizes that agencies should use
competitive procedures to the maximum extent possible and structure acquisitions
to deliver meaningful and measurable outcomes.

RESULTS
While SBA requires acquisition plans for all procurements to be approved prior to
award, the WAN Optimization contract was awarded without an approved
acquisition plan. The Associate Administrator (AA) for Management and
Administration (M&A) stated that he did not believe an approved plan was

2 The SBA 8(a) program was created to assist eligible small disadvantaged business concerns to compete in the
  American economy through business development.
3 OMB Memoranda, Initial Implementing Guidance for the American Recovery and Reinvestment Act of2009,

  February 18, 2009, and Updated Implementing Guidance for the American Recovery and Reinvestment Act of2009,
 April 3, 2009.
                                                                                                               3


required because the value of the contract was below what he believed was the
required threshold for plan approval. SBA's acquisition strategy for the
procurement also did not promote competition because SBA chose to issue the
contract on a sole-source basis under the 8(a) Program, however the FAR allows
an agency to award a contract for services on a sole-source basis to a company in
the 8(a) Program if the total value is $3.5 million or less. The 8(a) Program helps
agencies maximize small business participation in Federal contracting which, in
tum, helps small businesses maximize the economic benefit they provide to their
communities. Further, SBA officials developed measurable outcomes to evaluate
successful achievement of the WAN Optimization objectives and ensured that the
contractor was not on the Federal Excluded Parties List. Finally, SBA officials
properly posted the contract award on FedBizOpps.

The WAN Optimization Contract Was Awarded Prior to Approval of
the Acquisition Plan
We determined that the contracting officer awarded the Acuity contract for the
procurement of WAN optimization to Acuity on August 26, 2009, prior to
obtaining an approved acquisition plan. FAR Part 7, Acquisition Plans,
Subpart 103 (FAR 7.103) states that Agency Heads shall prescribe procedures for
reviewing and approving acquisition plans and revisions to those plans.
According to SOP 00 11 lH, Small Purchases, Contract, Grants, & COOP
Agreements, no procurement action shall be taken prior to the approval of the
planned acquisition by the Associate Deputy Administrator (ADA) for M&A. The
title of this position was subsequently changed to the AA for M&A. 4 In addition,
the SOP requires that acquisition plans for purchases exceeding $500,000 must be
approved by nine other key SBA officials. 5

Although SBA officials developed an acquisition plan for the WAN Optimization
project, the acquisition plan was not approved by any of the required parties. The
contract file contained no evidence that the acquisition plan was reviewed by the
AA for M&A. According to the AA for M&A, an approved plan was not required
because the value of the Acuity contract was below what he believed was the
threshold that would require signature approval. Further, while there was
evidence that the other required individuals participated in the acquisition process,
they had not signed the Acuity acquisition plan's coordination and approval sheet.

4 In August 2007, the title "Associate Deputy Administrator for Management and Administration (ADAIM&A)" was
  amended to "Associate Administrator, Office of Management and Administration (AAIM&A)" to align SBA's
  management titles to those commonly used across the Federal Government. No changes in the responsibilities,
  reporting relationship, or other regulatory duties ofthe office were made.
5 Acquisitions $500,000 and above require comprehensive acquisition plan approval by the Agency's: Planner;
  Program Office Official; Contract Specialist; Contracting Officer; Procurement Center Representative; Head of
  Contracting Office; Senior Procurement Executive; Chief Information Officer; Small Business Specialist; and
 ADAIM&A. In addition, the acquisition plan requires concurrence from the Competition Advocate, and the Office of
  General Counsel.
                                                                                4


Because the WAN Optimization acquisition plan was not approved by the
appropriate personnel, the contracting officer should not have awarded the
contract to Acuity.

SBA's Acquisition Strategy Promoted the 8(a) Program
OMB guidance for carrying out activities funded by the Recovery Act emphasized
that agencies should use competitive procedures to the maximum extent possible
for acquisitions made with Recovery Act funds. This guidance also recognizes
that small businesses playa critical role in stimulating economic growth and
creating jobs, and that qualified Sea) procurements can be noncompetitively
awarded up to the $3.5 million threshold under FAR 19.505. Instead of competing
the award for the WAN Optimization project, Agency officials chose to award a
sole-source contract to Acuity, an Sea) firm. Under the rules of the Sea) Program,
the FAR allows procurements for services under $3.5 million to be non­
competitively awarded without soliciting a request for proposal on FedBizOpps,
which significantly decreases the procurement time and supports small
disadvantaged business. Consequently, the award of the WAN Optimization
project was consistent with FAR and OMB guidance for the use of Recovery Act
funds.

SBA Met Other Requirements of the Recovery Act

OMB's April 2009 guidance requires that agencies include special terms and
conditions, beyond standard practice, in contracts made with Recovery Act funds
and that awards be made to qualified contractors. We determined that the contract
award for the WAN optimization included the required contract provisions and
that steps were taken to ensure the selected contractor was not on the Federal
Excluded Parties List.

Further, OMB' s guidance stresses that agencies should structure acquisitions to
result in meaningful and measurable outcomes that are consistent with agency
plans and goals of the Recovery Act. The evaluation criteria for award should also
include those that bear on the measurement and likelihood of achieving the
outcomes. We determined that SBA officials developed the following measurable
outcomes to evaluate successful achievement of the WAN Optimization
objectives:

   •   Improve response time by 30 percent; and
   •   Limit average bandwidth utilization during peak times to SO percent.
                                                                                     5


RECOMMENDATION

Because the recommendation made in our previous report on the Customer
Relationship Management Contracts addresses the deficiencies noted in this audit,
we are making no additional recommendations in this report. We previously
recommended that the AA for M&A take steps to ensure that no procurement
action is taken prior to the approval of an acquisition plan.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On May 14, 2010, we provided a draft of the report to SBA's Office of
Management and Administration for comments. On June 18,2010, the AA for
M&A provided written comments, which are contained in their entirety in
Appendix I. Management generally concurred with the reported findings and
provided comments regarding the Agency's compliance with OMB guidance on
the acquisition approach agencies should use for Recovery Act contracts.

Management Comments

Comment 1

Management took exception to the OIG's statement that SBA's acquisition
approach did not promote competition as required by the Recovery Act and OMB
guidance. Management believes the Recovery Act does not limit procuring
agencies' ability to use all available small business contracting programs,
including sole-source contracting through the 8( a) Program. In Management's
view, the sole issue in this matter is whether or not this particular contract was
suitable for award through the 8( a) Program.

DIG Response

The OIG agrees that SBA's actions for awarding the WAN Optimization contract
were in accordance with FAR and Recovery Act guidance on 8(a) competition and
added language to clarify the OIG's findings.

DIG Response

Management comments were responsive to our recommendation.
                                                                                  6


We appreciate the courtesies and cooperation of the Office of Management and
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 205_[FOIAeX2br Riccardo R. Buglisi, Director, Business
Development Programs Group at (202) 205- [FOIAex.2]
APPENDIX I. Management Comments



                           U.S. SMALL BUSINESS ADMINISTRATION 

                                  WASHINGTON, D.C. 20416 





    DATE: 	       June 18. 2010


    TO: 	         Debra S. Ritt
                  Assistant Inspector General for Auditing
                                          [FOIA ex. 6]
    FROM: 	       Darryl K. Hairston
                  Associate Administrator
                  Office of Managernent and Administration

    SUBJECT: 	    Draft Report on the Planning and Award of the Wide Area Network
                  Optimization Contract Using Recovery Act Funds, Project No.1 0501

    Thank you for providing the opportunity to comment on this draft report.

    With respect to your statement that SBA's acquisition approach did not promote
    competition as required by the Recovery Act and Office of Management and Budget
    (OMB) guidance, the Recovery Act did not limit procuring agencies' ability to use all
    available small business contracting programs, including sole source contracting through
    the 8(a) BD program. Pub. L. No. 111-5, Title XVI, Section 1610(a), 123 Stat. 115,304;
    OMB Memorandum, Initial implementing Guidance for the American Recovery and
    Rei11Vestment Act of2009, February 18, 2009, p. 40; OMB Memorandum, Updated
    implementing Guidance for the American Recovery and Reinvestment Act of2009, April
    3,2009, pp. 54-55. In our view, the sole issue in this matter is whether or not this
    particular contract was suitable for award through the 8(a) BD program.

    Following is the Agency's response to the IO's recommendation:

    Recommendation - Take steps to ensure tbat no procurement action is taken prior
    to the approval of an acquisition plan by the AA for M & A.

    We agree with this recommendation and will take the necessary steps to address the noted
    concern. Such steps will include a review and, as deemed appropriate, a revision of
    current Agency guidelines.

    Thank you again for your review and providing for the opportunity for this response.
